          Smithsonian Institution
          Office of the Inspector General


In Brief                          Facilities Maintenance Funds
                                  Report Number A-09-03-2, September 14, 2009



Why We Did This Audit             What We Found

We conducted an audit of the      The Office of Facilities, Engineering, and Operations (OFEO) has processes
Smithsonian Institution’s         in place for adequately maintaining the heating, ventilation, and air
facilities maintenance to         conditioning systems (HVAC) and the vertical transportation equipment
determine whether the             for the areas we reviewed. Contracting Officer’s Technical Representatives
Smithsonian (1) adequately        (COTRs) and supervisors test HVAC and vertical transportation
manages risk with existing        equipment to ensure contractors and staff properly perform all required
maintenance funding, and (2)      maintenance. By maintaining its equipment, the Smithsonian helps to
is correcting safety incidents    protect its assets from critical breakdowns and prevent increased facilities
caused by disrepair.              costs.

                                  We did not find any evidence of safety incidents caused by disrepair for
What We Recommended               HVAC and vertical transportation equipment. Various offices and
                                  mechanisms, such as safety evaluations and priority codes, are in place to
We made two                       prevent injuries throughout the Institution.
recommendations to
strengthen policies and           Although OFEO’s processes for maintenance of HVAC and vertical
procedures related to             transportation equipment are adequate for the limited systems we
documentation of facilities       examined, we found several ways in which the Institution could improve
maintenance. These                the management of its maintenance program. OFEO management cannot
recommendations should help       obtain accurate information from its automated maintenance management
OFEO better manage its critical   system (known as FacilityCenter) on the maintenance performed for
assets using the Smithsonian’s    HVAC equipment. In addition, although OFEO has instructions for how
maintenance management            to enter data into FacilityCenter, OFEO personnel lack written procedures
system.                           requiring them to do so. Thus, the maintenance information is incomplete.

Management concurred with         OFEO has taken steps to improve its maintenance program and associated
our findings and                  records. We noted that there are some compensating controls to mitigate
recommendations and has           the risks of critical HVAC breakdowns that might result in damage to the
planned corrective actions to     collections.
resolve both our
recommendations.




                                  For additional information or a copy of the full report, contact the Office of
                                  the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
0        Smithsonian Institution                                                                          Memo
         Office of the Inspector General


Date     September 14,2009
    TO   Audit and Review Committee, Board of Regents
         G. Wayne Clough, Secretary
         Bruce Kendall, Director, Office of Facilities Engineering and Operations
         Clair Gill, Deputy Director and Chief of Staff, Office of Facilities Engineering and
             Operations

    cc   Alison McNhally, Under Secretary for Finance and Administration
         d+-iYkb
 From A. Sprightle         an, Inspector General
Subject Audit of Facilities Maintenance and Safety, Number A-09-03-2

         This is the second of two reports on our audit of Facilities Maintenance and Safety at the
         Smithsonian Institution. The objective of the audit was to determine whether the
         Smithsonian could reduce overall facilities costs by maximizing the useful life of
         equipment while minimizing the risk of injury from equipment deterioration. We
         assessed, for a limited number of systems, whether the Smithsonian (1) adequately
         manages risk with existing maintenance funding, and (2) is correcting safety incidents
         caused by disrepair.
         During the course of the audit, we found that the Smithsonian misused maintenance
         funds for capital expenditures and recorded information inaccurately in its financial
         accounting system. Because of their significance, we issued a separate report on these
         findings.'

         We found that the Smithsonian did not keep sufficient records to verify whether the
         equipment had achieved its useful life. Therefore, we modified our objective and assessed
         whether the Smithsonian had processes in place to adequately maintain certain
         equipment, regardless of the equipment's useful life. Thus, in this report, we address the
         adequacy of the Smithsonian's processes to maintain certain systems and minimize
         injuries resulting from a lack of maintenance. The work we performed on two systems,
         including interviews, document collection, and data confirmation, required a significant
         amount of time. As such, we limited our scope to these two systems, and do not express
         an opinion on the effectiveness of the Smithsonian's maintenance program overall. We
         will address other maintenance systems in future audits.

         The Smithsonian, like many government entities, has an aging group of buildings. In its
         annual appropriation, it receives less than two to four percent of current replacement
         value for the constructed plant and infrastructure, the minimum amount recommended
         by the National Research Council (NRC)' for maintenance. Using this formula, the
         Smithsonian estimated that the minimum amount of annual maintenance funds it needs
         is approximately $100 million per year. In fiscal year (FY) 2008, Congress appropriated

         '~acilitiesMaintenance Funds, Number A-09-03-1 (Sept. 3,2009).
          he National Research Council is a non-profit institution that provides science, technology and health
          policy advice under a congressional charter.
                                                             1
 


approximately $51 million to the Smithsonian for maintenance. Consequently, the
Smithsonian must show diligence in its management of limited funds.
To evaluate the Smithsonian’s stewardship of its limited maintenance funding, we set out
to answer these objectives, focusing on fiscal year 2008.
We assessed whether the Smithsonian’s processes for maintaining two systems3 in its
facilities and minimizing maintenance-related injuries were adequate by reviewing the
maintenance practices and safety histories for heating, ventilation and air conditioning
(HVAC) and vertical transportation (elevators and escalators). These areas, described by
Smithsonian management as some of the most problematic, consume approximately 22
percent of the $46 million4 the Smithsonian budgeted for maintenance in FY 2008.
Because the Smithsonian manages the routine maintenance in these areas differently, we
designed our audit approach accordingly. To assess how the Smithsonian manages HVAC
maintenance, which is primarily performed in-house, we judgmentally selected two of the
Smithsonian’s eight zones to review,5 and examined the process for determining
maintenance needs and documenting completed maintenance. For vertical transportation
maintenance, the Smithsonian relies on a contracted service that covers all eight zones.
We reviewed the contractor-performed maintenance on this equipment and spoke with
officials charged with overseeing the contract. See Appendix A for a detailed description
of our scope and methodology.
RESULTS IN BRIEF
We found that the Smithsonian’s processes for maintaining its HVAC equipment, for the
two zones we reviewed, and vertical transportation equipment, overall, were adequate and
that the Smithsonian had priority plans in place for maintaining other critical equipment
as well. We did not find any incidents of injury caused by disrepair of HVAC or vertical
transportation equipment. However, we noted several areas in which the Smithsonian
could improve its overall management of the maintenance program.
We made two recommendations to strengthen policies and procedures. These
recommendations should help OFEO better manage its critical assets using the
Smithsonian’s maintenance management system.




                                                            
3
  The Smithsonian has eight maintenance systems: Structure, Exterior, Roof, HVAC, Electrical, Plumbing,
  Vertical Transportation and Interior Finishes.
4
  Congress appropriated approximately $51 million for FY 2008 maintenance. The Office of Protection
  Services and Smithsonian Tropical Research Institute manage their maintenance outside of OFEO’s
  primary maintenance group. Their appropriations for maintenance total approximately $5 million and are
  not included in the $46 million figure above.
5
  The Smithsonian divides the Institution’s 26 major museums and research centers into eight zones. The
  Smithsonian separately manages the Smithsonian Tropical Research Institute (in Panama) and the
  Smithsonian Astrophysical Observatory (in Cambridge, Massachusetts). See Appendix B for more
  information on the Institution’s zones.
                                                               2
 
 
 


BACKGROUND
Smithsonian Maintenance Program
The Office of Facilities Engineering and Operations (OFEO) is responsible for building,
operating, maintaining and ensuring a safe, secure, and healthy environment at the
Smithsonian. It is the primary office tasked with performing and overseeing maintenance
on the Smithsonian’s critical systems, such as HVAC, vertical transportation, roofing,
electrical and plumbing. Maintenance includes periodic testing and inspection;
adjustment; lubrication; and routine repair and replacement of broken parts.
To effectively manage the maintenance of Smithsonian facilities, OFEO has delegated the
responsibility of day-to-day facilities maintenance services to each zone. Each zone has a
manager, charged with ensuring that the facilities are well maintained and safe for the
collections, visitors and staff. Zone managers maintain facilities using both in-house and
contracted services. In Figure 1 we show a sample organization chart for a zone, which
demonstrates the personnel required to address the Smithsonian’s maintenance needs.


                                                                FIGURE 1 

                                                      Sample Zone Organization Chart 


                                 Building                               Zone
                                 Manager                               Manager

                 Engineer
                                  Asst.           COTR**
                  Tech
                                 Building
                                 Manager
                                           Building
                      Material
                                           Service
                      Handler
                                           Worker



       Maint.                     USRO*                 FS****             FS               FS                 FS             FS          2
     Supervisor                  Supervisor           Supervisor        Supervisor       Supervisor         Supervisor     Supervisor   Admins



                                  USRO                                   Laborer
       Painter                                        FS Leader                           6 BSWs            FS Leader       4 BSWs
                                 Supervisor                              Leader



     2 Electrical                 USRO
                                                      4 BSWs***         FS Leader                             3 BSWs
      Workers                     Leader




       Mason                     8 USROs                                 8 BSWs                              FSW*****




      3 Maint.                    HVAC
     Mechanics                   Mechanic




      Pipefitter
                                  * Utility Systems Repairer/Operator (USRO), primarily responsible for HVAC Maintenance
                                  ** Contracting Officer’s Technical Representative (COTR)
                                  *** Building Service Worker (BSW)
                                  **** Facilities Service (FS)
                                  ***** Facilities Service Worker (FSW)




                                                                                3
 
 
 


Maintenancee Expenses

In
 n FY 2008, th  he total amoount spent onn the Smithssonian’s maiintenance, exxcluding the
maintenance for the Officce of Protecttion Servicess (OPS), and  d the Smithso  onian Tropiccal
Research Insttitute, was ap pproximatelyy $46 million n. The Smithhsonian reco ords its
maintenance expenses in three catego    ories: salariees and benefiits; materialss, supplies an
                                                                                              nd
coontracts; andd maintenan  nce projects (see Figure 2). The Smith hsonian usess salaries and d
benefits, and materials, su upplies and contracts fun nds primarilly to pay for routine
maintenance tasks such ass lubricatingg or cleaningg. Maintenan  nce projects are those more
siignificant tassks that mayy involve repaairing or rep
                                                      placing compponent partss of Smithson   nian
asssets. For exxample, repaairing a sectio
                                         on of a museeum’s sidewaalk would bee a maintenaance
project.

                                           FIGURE 2

                                 FY 20088 Maintenance Spending

                        $4.88 million
              $11.7 million
                                                              Salariies and Benefitts

                                                              Materials, Supplies and
                                                              Contrracts
                                                              Main
                                                                 ntenance Projeccts

                                              $29.9 million




Maintenancee Managemeent System
The Smithson    nian uses a maintenance managemen      nt system callled FacilityC
                                                                                 Center to: (1)
maintain listss of equipmeent that requ  uire maintenaance, (2) sch hedule mainttenance taskks,
annd (3) record completed   d maintenance. The Officce of the Chiief Informattion Officer
(OOCIO) perso   onnel enter the critical assets into thee system, as well as the planned
maintenance tasks. OFEO     O must matcch each asset to a series of tasks. Oncee the assets are
matched to th   he appropriaate maintenaance tasks, th he system periodically prroduces workk
tiickets for plaanned mainttenance, which instruct maintenancee workers on       n which taskss to
perform on particular equ   uipment. Maaintenance employees must manuallly create
unplanned maintenance work tickets in FacilityC       Center. When   n their workk is completee,
whether plann    ned or unplaanned, the maintenance employees should docu       ument their work
 n FacilityCen
in              nter.

Facilities Maiintenance Goals

The Smithson  nian Institution preparess an annual Performancee Plan for revview by the
Office of Man nagement an nd Budget (O
                                     OMB), Conggress, and thee public, in accordance with
th
 he Governm ment Perform mance and Reesults Act of 1993. The Performance Plan identiffies
th
 he Institution
              n’s goals and
                          d performannce objectivess; improvem
                                                             ments in facillities
maintenance constitute one of the goals of the plaan.


                                                4 
 
 


The plan breaks down the facilities maintenance goals by system type: HVAC, vertical
transportation, roofs, electric, and fire and life safety. OFEO’s goal for HVAC equipment
in fiscal year 2008 was that temperature and humidity levels were within a target range 85
percent of the time. OFEO met the goal with buildings that fell within acceptable
temperature and humidity bands 91.5 and 91.9 percent of the time, respectively. The goal
for vertical transportation equipment was measured based on the mean time between
repair calls. The goal for fiscal year 2008 was an average of greater than 70 days between
repair calls. Overall, OFEO met this goal with an actual mean time between repairs of 85
days, with the exception of three facilities out of 18 that did not meet the goal.

RESULTS OF AUDIT
Management’s processes for maintaining HVAC and vertical transportation
equipment for the areas we reviewed are adequate
OFEO officials have processes in place for adequately maintaining the HVAC and vertical
transportation equipment for the areas we reviewed. Contracting Officer’s Technical
Representatives (COTRs) and supervisors perform spot checks of HVAC and vertical
transportation equipment to ensure contractors and staff properly perform the required
maintenance. By ensuring that COTRs and supervisors oversee the maintenance
performed on this equipment, the Smithsonian helps to protect its assets from critical
breakdowns and prevent increased facilities costs.

We found that OFEO had processes in place for maintaining the HVAC equipment at the
two zones. In one zone, the Utility Systems Repairer/Operator (USRO) supervisor ensures
his staff maintain HVAC equipment in three ways: (1) he inspects the HVAC equipment
at each building twice per week and instructs USRO technicians to follow up on any
problems he identifies; (2) he requires his staff to document maintenance work in a
logbook, which he reviews regularly; and (3) he spot checks the work tickets submitted by
his staff for completion. In the other zone, OFEO primarily uses a contractor,
supplemented by in-house staff, to maintain the HVAC equipment. The contractor
provides OFEO with work tickets of all completed maintenance tasks. OFEO oversees the
contractor by reviewing these work tickets and documenting inspections of the
maintenance performed on the HVAC equipment. The COTR will follow up with the
contractor to resolve any problems with the work performed.

We also found that OFEO had processes in place for maintaining the vertical
transportation equipment throughout the Smithsonian. A contractor performs routine
maintenance and required repairs. The contractor performs periodic maintenance tasks,
including checks of controller connections, lubricating the hoist motor, and checking
safety switches. The COTR inspected and validated the contractor’s work regularly using
procedures described in the contract and OFEO checklists. The COTR stated that he has
20 years of experience in the vertical transportation industry, which we believe
contributed to the satisfactory performance of the equipment.
According to OFEO, the average time between unscheduled service calls has improved by
41 percent by increasing from 68 to 96 days from 2007 to 2009. This average time
compares favorably to the national average of 60 days. Moreover, during this same
period, OFEO reported that availability of vertical transportation increased from 99.4
percent to 99.6 percent.


                                            5
 
 
 


Proper contract oversight and adequate supervision of OFEO employees, in our
judgment, contributed to the Smithsonian effectively reducing the risks of critical
equipment breakdowns and increased facilities costs in the future. Furthermore, OFEO
mitigated the risks of damage to collections or injury to visitors and staff by ensuring the
performance of adequate maintenance.

No Evidence Found of Safety Issues Caused by Disrepair

We did not find any evidence of safety incidents caused by disrepair for HVAC and
vertical transportation equipment. Various offices and mechanisms, such as safety
evaluations and priority codes, are in place to prevent injuries throughout the Institution.

OFEO’s Office of Safety, Health and Environmental Management (OSHEM) regularly
performs comprehensive safety evaluations at each facility. These evaluations address
safety, risk management, training, injury reporting, and recordkeeping. We reviewed all
18 evaluation reports available at the time of testing for FY 2008, noting that eight of these
reports cited safety violations related to HVAC and vertical transportation. However, after
careful consideration, we determined these were isolated incidents and not the result of
poor maintenance.6
As a supplement to OSHEM’s evaluations, OPS personnel act as first-responders to safety
incidents in each of the museums. They are required to document any emergencies they
respond to, including the date, time, and a detailed description of what occurred. OPS
provided 10 safety incident reports from 2008, relating to vertical transportation and
HVAC. We reviewed these reports, noting that all of the emergencies described were the
result of user error or negligence, such as running up the descending escalator, rather
than poorly maintained equipment.

To identify the maintenance projects requiring attention at each zone, OFEO develops a
detailed maintenance plan, which lists the projects it intends to accomplish over five years
and assigns a priority-code ranking to each project to identify the most urgent
maintenance projects. These projects may address problems with any critical equipment
at the Smithsonian. While executing the projects listed in the maintenance plan, OFEO
completes unplanned maintenance projects if they pose a significant safety risk to the
collections or to Smithsonian visitors and staff. In FY 2008, 42 percent of the amount
spent on maintenance projects addressed safety issues; 70 of the 87 safety-related projects
were unplanned. We believe that the programs, evaluations and procedures in place are
adequate for OFEO to address the Smithsonian’s major safety issues related to HVAC and
vertical transportation.




                                                            
6
    Examples of the safety violations included obstruction of HVAC ventilation and lack of written Confined
    Space Entry plans for elevators.
                                                               6
 
 
 


OPPORTUNITIES TO IMPROVE

Although OFEO’s processes for maintenance of HVAC and vertical transportation
equipment are adequate for the limited systems we examined, we found several ways in
which the Institution could improve the management of its maintenance program.

FacilityCenter is an Underutilized Tool
OFEO management cannot obtain accurate information from the FacilityCenter system
on the maintenance performed for HVAC equipment. Management cannot obtain
accurate information for two reasons: (1) maintenance employees do not enter the
completed maintenance data in the system, and (2) for two of the eight zones,
FacilityCenter is not fully operational because maintenance tasks have not been assigned
to specific assets. In addition, although OFEO has instructions for how to enter data into
FacilityCenter, OFEO staff lack written procedures requiring them to do so. Thus, the
maintenance information is incomplete. OFEO and an outside contractor are currently
developing written procedures for maintaining the HVAC systems.
Without complete records, it is not possible for OFEO management to accurately assess
whether staff perform sufficient maintenance on HVAC equipment. Management relies
on discussions with zone managers to control the maintenance process. However, since
the data in FacilityCenter is incomplete, OFEO management cannot use the system to
verify that maintenance work was performed. Information in the system such as the start
date, end date, location, task status, and maintenance description for a period is not
reliable. In the absence of an automated system, OFEO relies on manual records to
monitor these actions.

Although OFEO is not entering all data into FacilityCenter, there are some compensating
controls to mitigate the risks of critical HVAC breakdowns and resulting damage to the
collections. There are Building Automation Systems throughout the Smithsonian’s
buildings, which OFEO personnel use to monitor temperature and humidity. Curators at
the museums also monitor temperature and humidity independently of OFEO and they
notify OFEO if they believe the building environment could expose the collections to
damage.

We observed that OFEO has taken steps to improve its maintenance program and
associated records. OFEO is working with OCIO to upgrade FacilityCenter, which OFEO
management believes will resolve the issues we identified. The upgrade will feature the
use of hand-held input devices, and additional self-service and call center features, which
will help to ensure that all maintenance is entered into FacilityCenter. The upgrade will
also feature improved reporting functionality, which will help OFEO manage its
maintenance program more efficiently.




                                             7
 
 
 


RECOMMENDATIONS
To improve the effectiveness of the maintenance management system through better use
of FacilityCenter, we recommend that the Director of OFEO:
1. Implement policies and procedures to ensure that OFEO enters all maintenance tasks
into FacilityCenter.

2. Use available resources to promptly update and upload all critical assets’ scheduled
maintenance tasks into FacilityCenter.


MANAGEMENT COMMENTS
The September 8, 2009 response to the draft audit report from the Deputy Director and
Chief of Staff, Office of Facilities Engineering and Operations (OFEO) concurred with
both of our audit recommendations.
OFEO’s Office of Facilities Management and Reliability (OFMR) and the Office of the
Chief Information Officer (OCIO) worked to identify requirements for upgrading
FacilityCenter. The new version, launched in June 2009, makes the system easier to use,
and provides more accurate information. OFEO/OFMR is conducting reviews of all asset
data and preventive maintenance schedules in the system, and expects the system to be
fully functioning by February 2010.
In addition, OFEO/OFMR began updating the maintenance procedures manual in
August 2008. The manual, which became available on September 11, 2009, expands upon
the information in the 2007 version.
OFEO/OFMR has enlisted the help of a contractor to develop a maintenance-training
program for all employees. The program will teach the fundamentals and theory of
maintenance, and will instruct employees how to use FacilityCenter. Training will begin
in December 2009 and will target over 200 maintenance employees.
We include the full text of management’s response in Appendix C.


OFFICE OF THE INSPECTOR GENERAL COMMENTS
Management’s current and planned actions respond to the recommendations, and we
consider the recommendations resolved. We appreciate the courtesy and cooperation of
Smithsonian representatives during this audit.




                                             8
 
 
 


APPENDIX A. SCOPE AND METHODOLOGY
We set out to determine whether the Smithsonian can reduce overall facilities costs by
maximizing the useful life of major equipment while minimizing the risk of injury from
equipment deterioration. To accomplish these objectives, we interviewed management
and staff from the Board of Regents; Office of Facilities Engineering and Operations
(OFEO); the Office of the Comptroller; the Office of Planning, Management and Budget;
the Office of Contracting; and the Office of the Chief Information Officer. We reviewed
Smithsonian policies and procedures, industry standards, and federal statutes related to
facilities management and funding.
The Office of Facilities Management and Reliability (OFMR) within OFEO was our
primary contact during the course of this audit. We only reviewed maintenance activity
managed by OFMR. Accordingly, we did not review maintenance conducted by the
Office of Protection Services, the Smithsonian Tropical Research Institute or the
Smithsonian Astrophysical Observatory.
Vertical Transportation
Since OFEO identified vertical transportation as one of the Institution’s top three
problematic areas, the initial scope of our audit was to identify the prioritization of
maintenance requirements for vertical transportation equipment with limited funding.
Assuming that Smithsonian staff performed maintenance work, our intent was to select a
representative sample of vertical transportation equipment and examine the historical
maintenance documents for each piece of equipment to determine if they achieved their
expected useful lives. We found that a contractor performed maintenance on vertical
transportation equipment Institution-wide, except for the Steven F. Udvar-Hazy Center
in Dulles, Virginia. We excluded this facility from our scope. Because of incomplete
internal record-keeping, we were unable to validate the actual age of the vertical
transportation equipment overall, to determine if it is functioning beyond its expected
useful life. Consequently, we focused our efforts on reviewing the contract, the work
performed by the contractor, and the oversight of the contractor by the Contracting
Officer’s Technical Representative (COTR). We looked at elevators and escalators, but
not other vertical transportation equipment such as cranes and hoists. However, we refer
to elevators and escalators as vertical transportation equipment.
Specifically, we obtained and reviewed the plan that outlines the frequency and
maintenance tasks for vertical transportation equipment. We then reviewed the
maintenance records available for a judgmental sample of vertical transportation
equipment to verify whether maintenance took place as scheduled.
HVAC
We expanded our scope to review the maintenance work performed on Smithsonian
heating, ventilation and air-conditioning (HVAC) systems. We examined the process for
determining maintenance requirements and documentation of completed maintenance
tasks. Based on meetings with OFEO staff, we found that HVAC maintenance records are
incomplete. However, OFEO has a partially operational computerized maintenance
management system known as FacilityCenter, which is designed to schedule planned and
unplanned maintenance tasks. We conducted meetings with two zones that have either
fully or partially implemented FacilityCenter to track and schedule maintenance activities
to determine how they oversee the maintenance workload for HVAC equipment.


                                           A-1
 
 
 


For the zone that has implemented FacilityCenter, we obtained copies of the planned
maintenance schedules for selected units generated from Facility Center, a report of
maintenance work performed on the equipment, as well as the manual log book the zone
uses to record unplanned maintenance in order to enter into FacilityCenter upon
completion. We also obtained a report generated from FacilityCenter that the zone
Manager uses to identify the status of work orders for HVAC equipment within the zone.
The zone that has not fully implemented FacilityCenter uses both in-house and
contractor services to maintain HVAC equipment. For this zone, we reviewed the
contract of the work performed and the COTR’s oversight of the contract.
Safety
To determine the Institution’s progress in correcting safety issues due to disrepair, we
conducted interviews with OFEO staff and reviewed safety and incident reports related to
vertical transportation and HVAC equipment produced by the Office of Safety, Health
and Environmental Management and the Office of Protection Services.
 

                                         * * * * * 




We conducted our work in Arlington, Virginia and Washington, D.C. from November
2008 to July 2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence we obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                           A-2
 
 
 


APPENDIX B. BUILDINGS BY ZONE 

           Zone                                       Buildings
                              National Air and Space Museum, Mall
                              Steven F. Udvar-Hazy Center, Dulles Airport, Virginia
                  East Mall
                              National Museum of the American Indian, Mall
                              Building 380, Herndon, Virginia
                              Donald W. Reynolds Center, Washington, DC
              Gallery Place   Victor Building, Washington, DC
                              Renwick Gallery, Washington, DC
               North Mall     National Museum of Natural History, Mall
                              Smithsonian Environmental Research Center, Edgewater, MD
             Smithsonian      Carnegie Mansion, New York City
    Environmental Research    Fox-Miller House, New York City
                    Center    National Museum of the American Indian – US Customs
                              House, New York City
                              Arthur M. Sackler and Freer Buildings, Mall
                              Arts and Industries Building, Mall
                              Smithsonian Institution Building, Mall
                South Mall
                              Hirshhorn Building and Sculpture Garden, Mall
                              National Museum of African Art, Mall
                              S. Dillon Ripley Center, Mall
                              Anacostia Museum, Washington, DC
                              National Museum of Natural History – Museum Support
                              Center and related facilities, Suitland, MD
                  Suitland    National Museum of the American Indian – Cultural
                              Resources Center, Suitland, MD
                              National Air and Space Museum – Paul E. Garber
                              Preservation, Restoration, and Storage Facility, Suitland, MD
                              National Zoological Park, Washington, DC
          Upper Northwest
                              National Zoological Park, Front Royal, VA
                              National Museum of American History, Mall
                West Mall     National Museum of American History Storage Facility,
                              Newington, VA




                                             B-1
 
 
 


APPENDIX C. MANAGEMENT RESPONSE 





                          C-1
 
 
 


APPENDIX C. MANAGEMENT RESPONSE (CONTINUED) 





                          C-2
 
 
 


APPENDIX D. CONTRIBUTORS TO REPORT
Daniel R. Devlin, Assistant Inspector General for Audits
Brian W. Lowe, Supervisory Auditor
Teena R. Propst, Auditor-in-Charge
Katie L. Bruckner, Auditor
Michelle S. Uejio, Auditor




                                           D-1
 
 
